No.

 

 

IN THE

Supreme Court of the United States

CALVIN MCMILLAN,

Petitioner,
Vv.

STATE OF ALABAMA,
Respondent.

On Petition for Writ of Certiorari
to the Alabama Court of Criminal Appeals

Petition for Writ of Certiorari

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,293 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 17, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
